Peace Corps
Office of Inspector General




   Children enjoy the playground that Volunteer Jessica Robinson and
    her community helped construct through a CRUSA grant project.




                     Flag of Costa Rica



      Final Audit Report:
    Peace Corps/Costa Rica
                      IG-12-03-A
                                                                       March 2012
                                    EXECUTIVE SUMMARY
The Office of Inspector General (OIG) conducted an audit of Peace Corps/Costa Rica (hereafter,
“the post”) from September 19 – 30, 2011. At the time of the audit, the post had three U.S. direct
hires, three foreign service nationals, and 29 personal services contracts (PSCs). In fiscal year
(FY) 2011, the post’s budget was approximately $3.3 million supporting 105 Volunteers.

The post’s financial and administrative operations were effective and in overall compliance with
agency policies and federal regulations. Supporting documentation was easily retrievable. The
post had an efficient process for maintaining financial documentation in electronic format,
including payment vouchers and bills of collections.

However, the post’s FY 2012 budget was not sufficient to support the needs of the anticipated
number of Volunteers and trainees. In addition, we identified control weaknesses over imprest
fund operations, medical supplies, property management, and grant management. Specifically:

        The post did not review all accountable documents when conducting the monthly imprest
        funds reconciliation.

        The post had not fully implemented the necessary controls over medical supplies to
        ensure accurate and complete inventory records and prevent theft and misuse.

        The post did not have adequate separation of duties regarding personal property.

        The post did not have an effective process to ensure grant documentation was complete.

Management concurred with all 16 recommendations and took timely action to remediate our
findings. As a result, we closed nine recommendations. The remaining seven recommendations
will remain open pending confirmation from the chief compliance officer that the documentation
reflected in Appendices C and D is received.




Final Audit Report: Peace Corps/Costa Rica                                                         i
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

BACKGROUND ..................................................................................................................................1

AUDIT RESULTS ...............................................................................................................................1
          BUDGET ........................................................................................................................................................... 1

          IMPREST FUND MANAGEMENT ......................................................................................................................... 2

          MEDICAL SUPPLIES .......................................................................................................................................... 4

          PROPERTY MANAGEMENT................................................................................................................................ 5

          GRANT MANAGEMENT ..................................................................................................................................... 6

          PERSONAL SERVICES CONTRACTS ................................................................................................................... 8

          VEHICLE MANAGEMENT .................................................................................................................................. 8

          LEASES............................................................................................................................................................. 9


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .....................................................10

LIST OF RECOMMENDATIONS .......................................................................................................11

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY.............................................................13

APPENDIX B: LIST OF ACRONYMS ................................................................................................14

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ...............................15

APPENDIX D: OIG COMMENTS.....................................................................................................22

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .............................................................23
                                             BACKGROUND
OIG conducted an audit of Peace Corps/Costa Rica September 19 – 30, 2011. We previously
performed an audit February 20 - March 11, 2005 and issued our report in August 2005 (IG-05-
17-AE).

The first group of Volunteers arrived in Costa Rica in 1963. At the time of our visit, 105
Volunteers were working in four program areas: child, family, and youth development,
community economic development, rural community development, and teaching English and a
foreign language. The post had three U.S. direct hires, three foreign service nationals, and 29
PSCs. In FY 2011, the post’s budget was approximately $3.3 million.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a full
description of our audit objective, scope, and methodology.



                                             AUDIT RESULTS
BUDGET

The post’s FY 2012 budget was insufficient, resulting in essential training and security needs
being presented as unfunded requirements.

The post submitted a budget for FY 2012, which did not include the costs associated with a pre-
service training for a second set of trainees, one month of a security contract renewal, or a move
to a more secure office. The post presented these requests separately as unfunded requirements,
and risked not meeting its essential operational needs.

The Inter-American Pacific region instructed the post to remove the second pre-service training
from the budget amount. The region then consolidated the posts’ pre-service training needs into a
request for agency resources that was submitted to and approved by the Peace Corps Director in
October 2011. The Africa region and Europe, Mediterranean, and Asia region also presented
their pre-service training needs as requests for agency resources. Placing the pre-service training
in a request for agency resources while leaving the other associated costs with
trainees/Volunteers in the post budget’s separates the full costs of trainees/Volunteers. This
makes it difficult for the Director to deny the request because the post would have Volunteers in
country without the requisite training. Volunteer pre-service training is an essential cost that is
required once the post accepts the Volunteers.

In addition, the post’s security contract required renewal in September 2012. To meet the
targeted budget amount post did not include funding for the last month of the year although the
services would be needed.


Final Audit Report: Peace Corps/Costa Rica                                                           1
Another unfunded requirement of FY 2012 was $150,000 for relocation of the office. The region
deferred the request, stating that it “will reconsider this request when competition has been
conducted, and prices are obtained for multiple properties that are likely to be acceptable to post
and the RSO [regional security officer].” The relocation of the office is needed to help ensure the
safety of the Volunteers. During FYs 2010 and 2011, on three separate occasions Volunteers
were the victim of thefts and robberies near the post. During our interviews with Volunteers they
expressed concerns over their safety when traveling to the post. This hindered the relationship
between post staff and Volunteers because some Volunteers limited their trips or shortened
visits.

The current and prior RSO at the U.S. Embassy also expressed concern about the location of the
post. The post took several steps to increase safety and security following the incidents. The post
installed a second secure entrance, enhanced security guard procedures, and restricted Volunteers
and staff from waiting outside the post for taxis and buses. The post also restricted Volunteers
from staying at certain hotels and using buses in the city. However, this has increased the cost of
Volunteer trips and has further deterred Volunteers from traveling to the post and other areas of
the city.

During our site visit the director of management and operations (DMO) began researching
possible lease locations. Although the Peace Corps is operating in an austere budget
environment, the safety of the Volunteer must remain a top priority.

        We recommend:

        1. That the Office of Budget and Analysis, in coordination with the Office of Global
           Operations, instruct regions to discontinue the practice of including costs for essential
           business operations in requests for additional agency resources.

        2. That the post continue to implement enhanced security measures, including the
           possibility of moving the office to a safer location; and obtain agreement from region,
           Office of Safety and Security, and the regional security officer that the post’s security
           measures adequately mitigate the security risks.


IMPREST FUND MANAGEMENT

Management’s oversight of the imprest fund was inadequate.

We reviewed previous monthly cashier reconciliations. Since June 2011, the country director
(CD) conducted the monthly cashier reconciliation instead of the DMO. The DMO had not
submitted her test for becoming the cash verification officer because the U.S. Department of
State cashier monitor informed her that she could not be the cashier’s supervisor and conduct the
monthly verifications. According to chapter four of the Foreign Affairs Handbook, section
397.1-2:

    c. The following procedures must be followed to assign an LE [local employed] staff member as a CVO [cash
    verification officer]:


Final Audit Report: Peace Corps/Costa Rica                                                                      2
    (1)      The U.S. citizen FMO [financial management officer], management officer, or other agency U.S.
             citizen employee at post who normally supervises the cashier operation selects the LE staff member as
             a candidate for performing the monthly cashier reconciliations. The LE staff member may be called the
             “cash verification officer” (CVO) and must meet the following qualification criteria in addition to the
             training requirements listed in subparagraph c(3) of this section:

             (a) Must have knowledge of cashiering and post financial operations;
             (b) Cannot be an alternate or subcashier to the principal cashier;
             (c) Must have exemplary performance reviews and demonstrated good judgment and proven
                      reliability;
             (d) Cannot supervise the cashier or be supervised by the cashier over other duties at posts where the
                      cashier performs other duties; and
             (e) May not be a family member of the cashier whose account is being verified;

Separating the daily management of imprest fund operations from the monthly oversight
provides additional control to identify errors and prevent abuse. The DMO is trained on
conducting the monthly cashier reconciliation. At posts where the CD must conduct the monthly
cashier reconciliation it is important that they be well trained and knowledgeable on the process,
including the types of imprest fund transactions and their supporting documentation.

When conducting the monthly cashier reconciliation the CD did not always review the associated
documentation. The Overseas Financial Management Handbook section 13.24.1 states, “The
verification includes a complete reconciliation, with a cash count and verification of supporting
documents for all balances on the 365 (line by line) and completion of the Checklist for
Verifying Officers.” In addition to the cash on hand, the 365 form used for cash reconciliations
includes bank account amounts, deposit slips, replenishments and cash payments vouchers that
have not been fully processed by the Department of Treasury. These transactions must be
supported by appropriate documentation to ensure the imprest fund is accurate and in balance.
Otherwise, the imprest fund is vulnerable to loss or theft.

During our unannounced cash reconciliation, the cash count was short by a nominal amount (the
equivalent of five U.S. cents). The cashier informed us that she would contribute her own money
to make the cash count balance what was reported on the monthly cashier reconciliation
statement. When discrepancies were small, the cashier was more concerned with the
reconciliation balancing than the accuracy of the report. Adding or subtracting cash in order to
balance is not appropriate. The cashier said she would discontinue this practice.

          We recommend:

          3. That the country director ensure proper imprest fund verifications including a review
             of supporting documents for all balances on the cash reconciliation.

          4. That the country director receive additional training on conducting monthly cashier
             reconciliations.

The cashier did not set the combination to the imprest fund safe annually.

The Peace Corps Manual section (MS) 760.5.2 states:



Final Audit Report: Peace Corps/Costa Rica                                                                           3
            The cashier must personally set the combination to the safe. The Embassy Regional Security Officer (RSO)
            or technician assisting with the changing of the combination is not authorized to set or know the
            combination to the safe…. The combination should be changed annually, whenever there is a change in
            cashiers, or whenever the combination becomes known to a person other than the cashier.

Routinely changing the combination reduces the risk of unauthorized access to the cash.
Changing the combination requires the assistance of the U.S. Embassy’s RSO. The cashier had
not changed the combination and had not scheduled a visit.

            We recommend:

            5. That the cashier change the safe combination at least annually.


MEDICAL SUPPLIES

Controlled substances were not properly secured.

MS 7341 requires that:

            Posts must provide secure storage for all medical supplies that are specially designated or controlled
            substances. Secure storage must provide effective controls and safeguards against theft and diversion.
            Controlled substances must be kept in a bar-locked cabinet with a three-way combination lock. The filing
            cabinet must be placed in a locked room (such as a medical supply closet) within a locked office building.
            Any cabinet or safe used to store controlled substances that weighs less than 750 pounds must be bolted or
            cemented to the floor or wall in such a way that it cannot be easily removed.

The post only had four types of controlled substances on hand. The Peace Corps medical officer
(PCMO) kept the controlled substances in a locked file cabinet within the medical office, but did
not fully comply with MS 734 storage requirements. The cabinet was not bar-locked and was
also used to store medical files that the medical assistant needed to access. Proper safeguarding
and controlled access of medical supplies helps prevent loss and theft. Adding a bar-lock to the
cabinet and limiting its access to only PCMOs is necessary because of the sensitivity of
controlled substances.

            We recommend:

             6. That the Peace Corps medical officer store controlled substances in a bar-locked
                cabinet with a three-way combination lock and control access to the cabinet.

The post did not fully implement the agency’s medical supplies policy.

MS 734 specifies the post’s requirements relating to medical supplies inventory. It states,
“Assurance that effective controls are in place is achieved through maintaining appropriate
segregation of duties, accurate record keeping, secure storage, and periodic inventories.”


11
     MS 734 was updated in December 2011 with implementing procedures in Medical Technical Guideline 240, October 2011.


Final Audit Report: Peace Corps/Costa Rica                                                                                4
The PCMO implemented the required forms and the process for inventorying controlled
substances, but had not followed the same required procedures for specially designated items.
The specially designated items were not being tracked by the medical supply inventory control
clerk. Further, the CD signed the disposal forms without observing the medication transfer to the
pharmacy for disposal.

In addition, the CD did not submit the medical inventory control log to the Office of Medical
Services (OMS) annually as required by MS 734 and Medical Technical Guideline 240. The log
is an important tool in OMS’ review and oversight over posts’ medical supplies.

Maintaining accurate inventory records and timely reporting to OMS are important in order to
control medical supplies. Effective internal controls and procedures are required to prevent theft,
loss, or abuse of the post’s medical supplies inventory and provide effective medical services to
Volunteers.

        We recommend:

        7. That the medical supplies inventory control clerk include specially designated
           medical supplies on the medical inventory control log and ensure that the log contains
           accurate quantities and expiration dates.

        8. That the country director sign the medical supply disposal form only after observing
           the medical supplies transfer to the pharmacy.

        9. That the country director submit the medical inventory control log to the Office of
           Medical Services annually as required by Peace Corps Manual section 734 and
           Medical Technical Guideline 240.


PROPERTY MANAGEMENT

The post did not have proper separation of duties over property management; the cashier was
both the record-keeper and the person responsible for conducting inventories.

“Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1) issued by
the Government Accountability Office (hereafter, GAO Standards) state, “An agency must
establish physical control to secure and safeguard vulnerable assets.... Such assets should be
periodically counted and compared to control records.” The GAO Standards assert that
“…control activities help to ensure that all transactions are completely and accurately recorded.”
The GAO Standards also require the separation of duties, stating, “Key duties and
responsibilities need to be divided and segregated among different people to reduce the risk of
error or fraud.”

During the site visit, the Peace Corps’ inventory management specialist was training posts on a
new property accountability system, BarTrax. The system requires user roles for record-keeping
and inventorying. The cashier learned that she would not be assigned to both roles and that


Final Audit Report: Peace Corps/Costa Rica                                                        5
headquarters would monitor the system to ensure the responsibilities were separated. Once the
post determines who will fulfill the different roles, the system will help enforce the separation of
duties.

Adequate and properly implemented internal controls and procedures are essential for effective
accountability and oversight over post property. Control procedures such as segregating
incompatible responsibilities and reconciling inventories with the property inventory database,
are important steps in protecting the property from waste, fraud, and abuse.

        We recommend:

        10. That the country director appoint an individual to maintain the inventory database and
            a separate individual to conduct the physical inventory verification.


GRANT MANAGEMENT

The post utilized various internal grant programs including: Peace Corps Partnership, Small
Project Assistance (SPA), Volunteer Assistance Support Training (VAST) and Earth and Climate
Partnership of the Americas. In addition, Volunteers have frequently used other external sources
of funding including Costa Rica – United States of America Foundation for Cooperation, Kids to
Kids, and World Connect. The post has maintained a good relationship with the organizations
that support their external grant programs and has dedicated some staff resources to support the
management of these additional grant programs. Headquarters has provided limited guidance and
support to posts on managing these external grant programs.2




                 PC/Costa Rica Volunteer Hannah Kight and her counterpart in front of their grant funded recycling project.




2
 We added additional background information on the types of grant programs subsequent to the issuance of the
preliminary report.


Final Audit Report: Peace Corps/Costa Rica                                                                                    6
The post has maintained strong relationships with Volunteers by providing trainings and other
resources. Volunteers, we interviewed, reported feeling well-supported by post staff throughout
the grant process. In addition, the post communicated its approach to grant funding, which
promotes identifying local funding sources first, followed by in-country sources, and lastly other
external sources.

The post did not have an effective process to ensure grant documentation was complete.

MS 720, “Peace Corps Partnership Program” states, “The post and OPSI [Office of Private
Sector Initiatives] will each maintain a copy of the proposal, final report, and all correspondence
pertaining to the project.” The SPA Program Handbook – November 2010 states:

         A complete SPA Grant file containing all documentation related to the project (including the proposal, the
         Project Agreement, consent forms, documented budget revisions, waivers from PC/Washington, reports,
         etc.) should be kept at post. Such files should be maintained in accordance with Peace Corps directives on
         file management and Inspector General (IG) audit guidelines.

Although the post managed various grant programs, it had not developed an effective process to
oversee all of the associated project documentation. Instead, various staff with different roles in
the management of the grant process maintained separate files, making it difficult to obtain
complete documentation or determine the current status of projects. During our file review some
project files were missing documentation that the post was later able to provide. Further, neither
post nor Peace Corps headquarters provided specific instruction on what documentation should
be stored electronically versus paper.

Based on our review of seven selected grant project files we determined that five project files
were missing required signatures and not all transfer forms from one Volunteer to another were
easily obtained.3

The post recognized the need to centralize the management of its grant programs and was in the
process of reviewing its grant management. Additionally, the post has developed their own forms
where guidance was not provided, including committee approval checklists and a signature pages
for VAST application forms and completion reports.

         We recommend:

         11. That the post determine the documentation required for grant projects based on
             agency policies and the post’s needs.

         12. That the post establish a process to ensure that all relevant documentation is
             maintained in a form and location that is easily accessible.




3
  We revised the results of the file review based on additional documentation provided by the post subsequent to the
issuance of the preliminary report.


Final Audit Report: Peace Corps/Costa Rica                                                                            7
PERSONAL SERVICES CONTRACTS

Security background certification updates were missing for one PSC.

MS 743.8.2 states:

        For all host country resident PSCs contracted for 260 work days or more, the Country Director must ask the
        Regional Security Officer (RSO) or his or her designee to conduct a background investigation…of the
        proposed PSC prior to executing the contract…. The Country Director must request recertification of a
        continuously employed PSC every five years in accordance with 12 FAM 420.

We reviewed the security certifications for 25 out of 29 local PSCs and found that re-
certifications were not obtained for one individual. The staff received a security certification
when they were hired, but had not received recertification after five years. The certification
expired in July 2011. The CD acknowledged that “this has been a major effort” to obtain all
required security certifications and recertifications and told us that the post was coordinating
with the RSO’s office.

        We recommend:

        13. That the country director ensure that the post has obtained the security background
            updates and that these are placed in the staffs’ contractor files.


VEHICLE MANAGEMENT

The Post did not comply with recent updates to Peace Corps’ policy on vehicles sales by
conducting its own auction of excess vehicle.

Post auctioned and sold its vehicle on July 15, 2011. However, the Peace Corps’ Vehicle Fleet
Management Guide, June 29, 2011 disallowed PC facilitated sales/auctions for agency owned
vehicles. The guide states:

        Please note: There are revised procedures for disposing of agency owned vehicles. PC facilitated
        sales/auctions are no longer an acceptable method of disposal for agency owned vehicles.

        These are the only two acceptable means of disposals of PC vehicles. Arrange for the vehicles to be
        disposed of (sold) through an independent auction (competitive sale) through either the U.S. Embassy or a
        reputable third party auction.

The guide incorporated this requirement to ensure vehicles are sold at a fair and reasonable price
and to mitigate the risk of improper sales, such as inadequate arms-length transactions or bidding
fraud. Based on review of the advertisement, bidding procedures, and collections, we did not
identify any improper sales. The staff was unaware of the requirement and decided to conduct
the sales themselves because the U.S. Embassy had recently held an auction. In order the comply
with Peace Corps policies and controls, post must ensure future sales of vehicles and other
property are conducted by the U.S. Embassy or a third-party auctioneer.



Final Audit Report: Peace Corps/Costa Rica                                                                          8
        We recommend:

        14. That the country director ensure all property and vehicles sales are conducted by the
            U.S. Embassy or a third-party auctioneer.


LEASES

The post had not submitted all current leases to management at Peace Corps headquarters.

The DMO reported four properties to the Office of Administrative Services. However, the DMO
entered into a fifth lease in November 2010 and had not reported to headquarters in a timely
manner. In addition, the annual rent amount provided to Office of Administrative Services was
not accurate. For example, one lease was recorded by the Office of Administrative Services with
an annual rent of $624.96 instead of the actual rent amount of $25,000 per year.

MS 733 paragraph 4.3 requires that:

        Two copies of all (real property) leases and subleases (including a copy of the primary lease) must be
        submitted to the Office of Administrative Services (M/AS), Peace Corps/Washington, within 30 days after
        the execution of the lease, together with the following information needed to fulfill General Services
        Administration (GSA) and Office of Management and Budget (OMB) reporting requirements…

Overseas posts must provide managers with accurate and timely information to make informed
decisions and fulfill Federal reporting requirements. Because this information is needed to ensure
compliance with GSA and OMB requirements, Peace Corps’ internal control program should
ensure that posts are aware of their responsibilities to send the information to headquarters.

The Administrative Management Control Survey is used by posts to check compliance with
laws, regulations, and Peace Corps policies. The Office of Global Operations and regional
management administer the survey and posts complete the questions each year. The post would
not have identified the gap using the survey, because it did not have a question on reporting lease
information to the Office of Administrative Services.

        We recommend:

        15. That the director of management and operations send updated information on all of
            the post’s leases to the Office of Administrative Services and ensure the information
            listed for the post’s leases is accurate.

        16. That the Office of Global Operations update the Administrative Management Control
            Survey to include a question regarding timely submission of leases to the Office of
            Administrative Services.




Final Audit Report: Peace Corps/Costa Rica                                                                        9
                             QUESTIONED COSTS AND
                          FUNDS TO BE PUT TO BETTER USE
We did not identify funds to be put to better use or questioned costs during our audit.




Final Audit Report: Peace Corps/Costa Rica                                                10
                              LIST OF RECOMMENDATIONS
We recommend:

    1. That the Office of Budget and Analysis, in coordination with the Office of Global
       Operations, instruct regions to discontinue the practice of including costs for essential
       business operations in requests for additional agency resources.

    2. That the post, in coordination with region, continue to pursue a safer location for the
       office and move to an area acceptable to the regional security officer.

    3. That the country director ensure proper imprest fund verifications including a review of
       supporting documents for all balances on the cash reconciliation.

    4. That the country director receive additional training on conducting monthly cashier
       reconciliations.

    5. That the cashier change the safe combination at least annually.

    6. That the Peace Corps medical officer store controlled substances in a bar-locked cabinet
       with a three-way combination lock and control access to the cabinet.

    7. That the medical supplies inventory control clerk include specially designated medical
       supplies on the medical inventory control log and ensure that the log contains accurate
       quantities and expiration dates.

    8. That the country director sign the medical supply disposal form only after observing the
       medical supplies transfer to the pharmacy.

    9. That the country director submit the medical inventory control log to the Office of
       Medical Services annually as required by Peace Corps Manual section 734 and Medical
       Technical Guideline 240.

    10. That the country director appoint an individual to maintain the inventory database and a
        separate individual to conduct the physical inventory verification.

    11. That the post determine the documentation required for grant projects based on agency
        policies and the post’s needs.

    12. That the post establish a process to ensure that all relevant documentation is maintained
        in a form and location that is easily accessible.

    13. That the country director ensure that the post has obtained the security background
        updates and that these are placed in the staffs’ contractor files.



Final Audit Report: Peace Corps/Costa Rica                                                          11
    14. That the country director ensure all property and vehicles sales are conducted by the U.S.
        Embassy or a third-party auctioneer.

    15. That the director of management and operations send updated information on all of the
        post’s leases to the Office of Administrative Services and ensure the information listed
        for the post’s leases is accurate.

    16. That the Office of Global Operations update the Administrative Management Control
        Survey to include a question regarding timely submission of leases to the Office of
        Administrative Services.




Final Audit Report: Peace Corps/Costa Rica                                                         12
APPENDIX A

                   OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal regulations.
Our audit conclusions are based on information from three sources: (1) document and data analysis,
(2) interviews, and (3) direct observation. Our audits are conducted in accordance with the
government auditing standards prescribed by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The audit of Peace Corps/Costa Rica covered fiscal years 2009, 2010, and 2011. While at the
post, we interviewed key staff including the CD, the DMO, staff responsible for administrative
support, and the lead PCMO. As part of the audit process, we briefed the CD and DMO. At
headquarters, we conducted a general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system and verified such data with
hard-copy documents as required. While we did not test the system’s controls, we believe the
information generated by the system and used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, Medical Technical Guidelines, and other
Peace Corps policies and initiatives.




Final Audit Report: Peace Corps/Costa Rica                                                       13
APPENDIX B

                                       LIST OF ACRONYMS
 CD                              Country Director
 DMO                             Director of Management and Operations
 FY                              Fiscal Year
 GAO                             Government Accountability Office
 GSA                             General Services Administration
 MS                              Peace Corps Manual Section
 OIG                             Office of Inspector General
 OMB                             Office of Management and Budget
 OMS                             Office of Medical Services
 PC                              Peace Corps
 PCMO                            Peace Corps Medical Officer
 PSC                             Personal Services Contracts
 RSO                             Regional Security Officer
 SPA                             Small Project Assistance
 VAST                            Volunteer Assistance Support Training




Final Audit Report: Peace Corps/Costa Rica                               14
APPENDIX C

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Costa Rica      15
APPENDIX D

                                             OIG COMMENTS
Management concurred with all 16 the recommendations. We closed nine recommendations
based on evidence of corrective actions that address the recommendations. The following seven
recommendations will remain open pending confirmation from the chief compliance officer that
the documentation below is received.

        Recommendation 1. A copy of the memorandum sent from Office of Budget and
        Analysis to the region regarding the process funding essential business operations.

        Recommendation 2. A list of the security enhancements recommended by the Peace
        Corps safety and security officer and agreed to by region and the regional security officer
        and an implementation plan.

        Recommendation 9. A copy of the email showing the post submitted the medical
        inventory control log to the Office of Medical Services.

        Recommendation 11 and 12. A copy of the protocol for grant document maintenance.

        Recommendation 14. Evidence that the post’s policy is to use the U.S. Embassy or a
        third-party auctioneer to sell excess property and vehicles. This can be expressed in the
        post’s staff handbook or through a memorandum from the country director to the staff
        responsible for property management.

        Recommendation 16. A copy of the Administrative Control Management Survey with the
        additional question on sending leases to the Office of Administrative Services.

In their response, management described actions it is taking or intends to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Costa Rica                                                          22
APPENDIX E

                   AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                        Brad Grubb, Assistant Inspector General for Audit, and Danel
                                        Trisi, Program Analyst performed the audit of Peace
                                        Corps/Costa Rica.

OIG CONTACT                             If you wish to comment on the quality or usefulness of this
                                        report to help us strengthen our product, please email Assistant
                                        Inspector General for Audit Bradley Grubb, at
                                        bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: Peace Corps/Costa Rica                                                            23
Help Promote the Integrity, Efficiency, and
     Effectiveness of the Peace Corps
Anyone knowing of wasteful practices, abuse, mismanagement,
fraud, or unlawful activity involving Peace Corps programs or
personnel should call or write the Office of Inspector General.
    Reports or complaints can also be made anonymously.




                       Contact OIG

                                Hotline:
       U.S./International:       202.692.2915
       Toll-Free (U.S. only):    800.233.5874

       Email:                    OIG@peacecorps.gov
       Web Form:                 www.peacecorps.gov/OIG/ContactUs

       Mail:                     Peace Corps Office of Inspector General
                                 P.O. Box 57129
                                 Washington, D.C. 20037-7129

                   Main Office: 202.692.2900
